Jake Sgambati, Chief Administrative Officer, EMA
David Burgess, Chief of Operations, EMA
Paul Butki, Country Director
Matheu Schwenk, Director of Management and Operations
JordanDesk@peacecorps.gov
       Peace Corps
       Office of Inspector General




Hadrian’s Gate in the city of Jaresh                     Flag of Jordan




   Peace Corps Volunteers Angela Trujillo, Kasumi Takahashi, Megan Keeling,
     Michelle Chan, and Ruby Mitchell at the ancient Roman ruins in Jaresh



                      Final Audit Report:
                      Peace Corps/Jordan
                          IG-12-07-A
                                                                September 2012
                                    EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Jordan (hereafter
referred to as “the post”) from May 27 to June 9, 2012. At the time of the audit, the post had
three U.S. direct hires, two foreign service nationals, and 15 personal services contractors.
According to the Peace Corps’ fiscal year (FY) 2013 Congressional Budget Justification, the
post had a FY 2012 budget of approximately $2.3 million supporting 65 Volunteers.

The post’s financial and administrative operations were effective and in overall compliance with
agency policies and federal regulations. However, we noted the following:

        The post did not follow proper billing and collection procedures by permitting Volunteers
        to collect host country contributions directly. Further, the post had not established
        memorandums of understanding related to host country contributions with local
        universities which were supporting Volunteers. Without proper documentation and
        collection the Volunteers are at greater risk if the lease is terminated.

        The post did not ensure lease documentation contained all of the required information
        and, did not ensure that lease terms were clearly defined. Further, the post made lease
        payments annually and semiannually instead of quarterly, causing $114,301 to be spent
        up to a year in advance.

        The post did not have a process to track expenditures associated with an interagency
        agreement between the post and the U.S. Agency for International Development
        (USAID) in support of its Enhancing Water Awareness program. As a result, the post is
        at risk of not using all of the funding available.

        The Director of Management and Operations (DMO) had not assigned the appropriate access
        level to the financial assistant in the FORPost accounting system to ensure proper separation
        of duties and limit the user’s role in preparing financial transactions.

        The post had not requested a modification to the services charged in the International
        Cooperative Administrative Support Services (ICASS). Doing so could save the post up to
        $9,300 over the next three years in funds to be put to better use.

We also noted areas of improvement in bills of collection procedures, medical supply inventory
procedures, vouchering, and property management.

Management concurred with all 17 recommendations. Management took timely action to
remediate our findings. As a result, we closed six recommendations. The remaining 11
recommendations remain open pending documentation described in Appendixes C and D.




Final Audit Report: Peace Corps/Jordan                                                             i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
          HOST COUNTRY CONTRIBUTIONS ....................................................................................................................1

          GRANT FUNDING ..............................................................................................................................................2

          LEASES............................................................................................................................................................. 3

          INFORMATION TECHNOLOGY ...........................................................................................................................4

          BILLING AND COLLECTION............................................................................................................................... 6

          MEDICAL SUPPLIES ..........................................................................................................................................7

          PROPERTY MANAGEMENT................................................................................................................................ 8

          INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES ...........................................................9


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .....................................................10

LIST OF RECOMMENDATIONS .......................................................................................................11

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................13

APPENDIX B: LIST OF ACRONYMS ................................................................................................14

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................15

APPENDIX D: OIG COMMENTS.....................................................................................................23

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................24
                                         BACKGROUND
OIG conducted its audit of the post May 27 to June 9, 2012. We previously performed an audit
May 6–24, 2007, and issued our report in September 2007 (IG-07-17-A).

The first group of Volunteers arrived in Jordan in 1997. Over 440 Volunteers have served in
Jordan since it was first established. At the time of our audit, 65 Volunteers were working in the
education program sector and the youth and community development program sector. According
to the Peace Corps’ FY 2013 Congressional Budget Justification, the post had a FY 2012 budget
of approximately $2.3 million.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.



                                         AUDIT RESULTS
HOST COUNTRY CONTRIBUTIONS

The post did not follow Peace Corps policy by permitting Volunteers to collect approximately
$8,000 directly from a local university to offset their rent. Further, the post did not have a
memorandum of understanding with two universities related to host country contributions.

The post assigned five Volunteers to two universities from December 1, 2010 to January 2012.
The universities directly paid approximately $8,000 in cash to the Volunteers for housing. The
Volunteers signed lease agreements with their landlords and used the contributed funds to pay
monthly rent. The post was aware of and facilitated this process.

Overseas Financial Management Handbook (OFMH) chapter 27, “Host Country Contributions,”
states:

        Cash contributions from Host Governments and Non-Governmental Organizations (NGOs) may be
        accepted by the Country Director under terms set forth in MS 722.

The post bypassed controls in place to monitor, track, and report host country contributions by
allowing Volunteers to directly collect contributions for Volunteer rent from two universities.
The Volunteers were responsible for keeping the cash in their possession to pay their leases. This
increases the risk that the cash could be lost or stolen, making the Volunteer liable for the loss.
Because the Volunteers were receiving cash directly from the universities and using the cash to
pay their leases, the post was out of compliance with the Miscellaneous Receipts Act that
requires all collections be deposited with the Treasury Department. That act states that “An




Final Audit Report: Peace Corps/Jordan                                                              1
official or agent of the Government having custody or possession of public money shall keep an
accurate entry of each amount of public money received, transferred, and paid.”

OFMH 27 instructs posts to issue bills of collection for host country contributions and collect the
funds through the imprest fund. The post should follow OFMH 27 for collecting the rent from
the local universities to ensure proper controls over collections.

In addition, the post had not signed memorandums of understanding with the universities to
document the anticipated host country contributions. Signing a memorandum with each
university is necessary to outline the roles and responsibilities of the post and the universities
with respect to their support of Volunteers.

        We Recommend:

        1.    That the post sign a memorandum of understanding with each university to outline
              the roles and responsibilities of the Peace Corps and the universities.

        2.    That the post prepare at the beginning of each year an estimate of all expected
              contributions to be received during the year, and reconcile the estimated
              contributions of the beginning of the year with the actual contributions received
              during the year and clear any discrepancies.

        3.    That the Director of Management and Operations issue a bill of collection for the
              host country contribution and collect the funds through the imprest fund in
              accordance with Peace Corps Manual section 722 and the Overseas Financial
              Management Handbook chapter 27.


GRANT FUNDING

The post did not adequately track expenditures associated with the interagency agreement
(IAA) between the post and USAID to ensure funding was used in a timely manner and in
compliance with the terms of the agreement.

The participating agency program agreement between USAID and the Peace Corps entitled the
Enhancing Water Awareness Program, effective October 2010, provided the post with $243,110
allocated across seven budget lines. We reviewed the post's spending for FY 2011 and FY 2012
through June 6, 2012. The Peace Corps’ accounting object codes did not align with the codes in
the IAA. The financial assistant explained that Peace Corps headquarters provided only a few
object codes for use with these funds, and that the post cannot change the codes in the accounting
system. As a result, the post could not use FORPost to allocate costs by the line items in the IAA.

During our review, we attempted to allocate costs to specific line items in the IAA based on the
transaction’s description in the payment record. Our review indicated the post's spending was
significantly lower than the budget. For example, FY 2011 expenditures were 20 percent lower
than budgeted. We projected the post will spend 20 percent lower than budgeted in the current


Final Audit Report: Peace Corps/Jordan                                                               2
year based on the FY 12 expenditures we reviewed. Without properly tracking and adjusting
budget lines, the post is at risk of not complying with the terms of the agreement by not spending
the full amount provided, and could potentially lose any unspent funds.

        We recommend:

        4. That the Director of Management and Operations implement a process to track the
           funds provided through the Enhancing Water Awareness program to ensure
           compliance with the terms of the interagency agreement.


LEASES

The post made advance rental payments annually or semiannually instead of quarterly.

MS 733 procedures, paragraph 4.8, “Leases” states:

        It is in the U.S. Government’s best interest to keep advance rental payments and deposits to a minimum.
        Whenever possible, rental payments should not be made for more than one quarter in advance.

The post had four leases: one for the main office and three for U.S Direct Hire staff housing. The
leases did not follow the most current lease template developed by the Office of Acquisitions and
Contract Management and included semiannual and annual advance payment terms. As a result, the
post prepaid approximately $114,301 in excess or quarterly payments.

                 Table 1. Lease Payments
                                Payment      Prepaid                      Prepayment in
               Lease No.        Terms        Amount                     Excess of Quarterly
               400-11-L001      Semi-Annual $11,299.44                       $ 5,649.72
               440-11-L002      Annually     24,247.18                        18,185.39
               440-12-L002      Annually     95,197.74                        71,398.30
               440-12-L001      Annually     25,423.73                        19,067.80
               Total                                                        $114,301.21

Making lease payments consistently in accordance with the MS 733 procedures would allow the post
to use funds as needed throughout the year and would reduce the risk of such complications as
retrieving the funds in case of emergency evacuations, sudden devaluation of currency, or other
unforeseen events.

The post did not ensure lease documentation contained all of the required information, and did
not ensure that the terms were clearly defined.

MS 733 procedures, paragraph 4.8, “Leases” states:

        Payment of leases should normally be made in local currency, not in U.S. dollars (USD)....




Final Audit Report: Peace Corps/Jordan                                                                            3
           Regardless of the currency in which the lease is paid, only one currency should be listed on the lease.
           Listing both currency types (local and USD) may result in Peace Corps having to pay the higher value of
           the two in the case of extreme exchange rate fluctuations. Exceptions to this must be approved by OACM.

We determined that the post listed both USD and local currency in each of its leases. Listing both
currency types creates a risk that Peace Corps could potentially have to pay higher rate due to
exchange fluctuations. The post should list only local currency in new or renewal leases in the
future. Further, we found that the post did not always include square footage for buildings and
grounds in the leases, which is required to ensure the Peace Corps properly reports lease information
to the General Services Administration.

           We recommend:

           5. That the Director of Management and Operations maintain complete lease files
              containing the justification for making advance lease payments and the approval for
              payments other than quarterly.

           6. That the Director of Management and Operations list only local currency and include
              square footage in lease contracts.


INFORMATION TECHNOLOGY

The DMO had not assigned the appropriate access level to the financial assistant in the FORPost
system to ensure proper separation of duties and limit the user’s role in preparing financial
transactions.

According to OFMH chapter 24, “FORPost User Access,” the Country Director (CD) or DMO
serves as the system administrator and is responsible for assigning proper user roles in FORPost
and for checking quarterly to ensure user roles are correct.

The financial assistant’s FORPost authorization form listed the appropriate user role
(Administrative Assistant/Financial Assistant); however, the financial assistant had a DMO's
access level in the FORPost system. FORPost is the accounting system at post, used to transmit
financial transactions to the agency’s Odyssey financial tracking system. It is important to
maintain the correct user roles to limit users’ capabilities to their assigned responsibilities and
prevent unauthorized access to data not required for their job. With the DMO role, the financial
assistant could both create and approve financial transactions, thus bypassing separation of
duties, enabling the user to potentially record fraudulent transactions. Access controls “provide
reasonable assurance that access to computer resources (data, equipment, and facilities) is
reasonable and restricted to authorized individuals.”1

During our site visit, the DMO assigned the financial assistant the proper user role. Accordingly, this
recommendation will be closed upon issuance of the final report.


1
    Government Accountability Office, Federal Information Systems Control Audit Manual, February 2009.


Final Audit Report: Peace Corps/Jordan                                                                               4
        We recommend:

        7. That the Director of Management and Operations assign the financial assistant the proper
           user role in FORPost.

The post had an information technology contingency plan, but had not recently tested the plan or
included specifics on disaster recovery.

The National Institute of Standards and Technology Special Publication 800.53, Recommended
Security Controls for Federal Information Systems and Organizations, instructs organizations to
develop a contingency plan for the information system that identifies essential missions and
business functions and associated contingency requirements. This publication further suggests
that:

        [The organization] establishes an alternate processing site including necessary agreements to permit the
        resumption of information system operations for essential missions and business functions within.

        The organization tests/exercises the contingency plan at the alternate processing site to familiarize
        contingency personnel with the facility and available resources and to evaluate the site’s capabilities to
        support contingency operations.

According to the information technology specialist, the post prepared a contingency plan and
tested it in FY 2010. The contingency plan included several essential elements including
priorities, disaster types, recovery procedures, and points of contact. The plan could be improved
by including additional information about manual processes and how the recovery site would be
set up and made operational. Further, the post should test the contingency plan each year under
different scenarios to ensure personnel are familiar with their roles and responsibilities in case of
emergency.

        We recommend:

        8. That the information technology specialist update the contingency plan to include more
           specific information on recovery procedures.

        9. That the post test the information technology contingency plan each year.

The post had not finalized its information system security plan.

The National Institute of Standards and Technology Special Publication 800.53 instructs
organizations to develop a security plan for its information systems. The information technology
specialist prepared a draft information system security plan for the post in September 2011 and
submitted it to the Office of the Chief Information Officer. However, the post has not received
feedback and has not finalized the plan as of the writing of this report.




Final Audit Report: Peace Corps/Jordan                                                                               5
        We recommend:

        10. That the information technology specialist, in coordination with the Office of the Chief
            Information Officer, finalize the post’s information system security plan.


BILLING AND COLLECTION

The post did not have adequate internal control mechanisms to verify whether all personal
vehicle usages were identified, billed and collected.

MS 522 section 4.1.10, “Reimbursement to the Peace Corps,” states:

        The Country Director shall use the daily vehicle log to make monthly collections for those authorized uses
        that require reimbursement to the Peace Corps.

We were unable to verify whether all personal vehicle usages had been identified and billed. The
general services manager (GSM) used email to notify the financial assistant to issue bills of
collection for personal vehicle usage. Some of the notifications had multiple periods or multiple
vehicles that were used for personal purposes, without making specific reference to the vehicle
or the exact date on which that vehicle was used. It was difficult and time consuming to trace
each personal usage entry on the vehicle logs to the bills of collection. Further, the vehicle usage
logs did not always state the purpose of the trips. The purpose of the trip is essential to determine
whether or not the trip was for a personal or business purpose. Without adequate internal control
mechanisms, and without stating the purpose of each trip, personal vehicle usages could go
uncollected.

        We recommend:

        11. That the Director of Management and Operations develop a process to verify that all
            personal vehicle usages were identified and billed and that supporting documentation
            is maintained with the bills of collection.

        12. That the General Services Manager ensure the drivers enter the purpose of each trip in
            the vehicle usage logs.




Final Audit Report: Peace Corps/Jordan                                                                               6
MEDICAL SUPPLIES

The post was not in full compliance with the Peace Corps’ policies for control over medical
supplies contained in both MS 734 and Peace Corps Medical Technical Guideline (TG) 240.

MS 734 “Medical Supplies and Equipment,” paragraph 3 states:

        It is the policy of the Peace Corps to maintain effective controls and procedures that govern the
        procurement, receipt, storage, inventory, dispensation, and disposal of medical supplies and to adopt and
        implement special standards applicable to controlled substances.

TG 240 “Medical Supplies and Equipment” states:

        [The] Inventory Reconciliation Clerk (IRC) [is] appointed by CD and is responsible for the reconciliation
        of the recorded inventory in the health office and the recorded inventory in the office’s inventory
        workbook.

        The PCMO... and the DMO are responsible for developing and maintaining a tracking system for supply
        orders…. Orders must be tracked to determine anticipated receipt, confirmed receipt, and duty to reorder
        unfulfilled requests.

The post had assigned the cashier as a medical supply inventory control clerk (MSICC) to
maintain the office’s medical supply inventory workbook and to ensure proper use of inventory
forms for dispensed, received, or disposed-of supplies. The post also had assigned the
administrative assistant as an acceptance point clerk (APC) to ensure that newly received
medical supplies are properly received, counted, and recorded. However, the post had not
properly conducted reconciliations of the recorded inventory in the health office and recorded
inventory in the office’s inventory workbook. According to TG 240, posts must conduct
quarterly reconciliations and report results to the CD.

Further, we noted that both the MSICC and APC did not always sign the receiving report.
Without proper reconciliation, medical supplies could go unrecorded in the inventory workbook.

        We recommend:

        13. That the post conduct inventory reconciliations of the recorded medical supply
            inventory in the health unit with the recorded inventory in the office’s inventory
            workbook.

        14. That the country director ensure both the medical supply inventory control clerk and
            the acceptance point clerk verify the accuracy of received medical supplies and sign
            the receipt forms.




Final Audit Report: Peace Corps/Jordan                                                                              7
PROPERTY MANAGEMENT

The post recently implemented BarTracks property management software but had not fully
implemented the proper separation of duties.

The post began using BarTracks in October 2011. BarTracks is the Peace Corps’ property
management system designed to record and track personal property items, such as computers and
furniture. The data entered in the system was from previous property records maintained on Excel
spreadsheets. Because of errors and inconsistencies in this data, headquarters and the general
services manager required a substantial amount of time and effort to ensure the records were
accurate. Because of the level of effort required, the GSM assumed all of the property management
responsibilities for recording data, bar-coding items, and scanning the items into the database. One
example of the negative impact of this was that the post’s residential property had not been entered
into the property records.

In May 2012, the DMO separated the property management responsibilities so that the
administrative assistant maintains the property database and the drivers conduct inventory. By
assuming these roles the post will have adequate separation of duties when recording personal
property and conducting the physical inventory.

        We recommend:

        15. That the Director of Management and Operations implement the new separation of duties
            during the next physical inventory.

The general services manager did not update BarTracks with the proceeds from the sale of
personal property.2

During personal property sales, the GSM prepared a list of items for sale and sent it to the DMO,
who prepared a report of excess property. The post then sent the property with the list of items to the
U.S. Embassy to include in their property auctions, where it was separated into lots and sold.

Once the property was sold, the U.S. Embassy provided the notice of sale and the accounting
transfer to the post, but did not itemize the property that was sold in the lots. Because the exact
amount of each item’s sale value was not definite, the post did not enter a sale value in the
BarTracks property record. According to the Peace Corps' Personal Property Management
Handbook section “Documenting the Sale,”

        When updating BarTracks, the method of disposal for assets sold at an embassy auction should be “Sale”. The
        winning bidder should be listed in “Recipient”, the Disposal Date is the date of the auction, and the Receipt
        Number generated by the embassy should all be added to the database. Proceeds of Sale can be complicated, as
        assets are sometimes auctioned in lots. If an asset is sold on its own, list the proceeds of the sale in BarTracks. If
        an asset is sold as part of a group of assets, estimate the percentage of the overall value that the asset contributed
        to the sale.


2
  Personal property is tangible, Peace Corps-owned, moveable property located in the U.S. and overseas. It does not
include land and buildings, four-wheeled vehicles, or medical supplies.


Final Audit Report: Peace Corps/Jordan                                                                                 8
The report of excess property contained estimated costs for each item sold at the auction. The post
could use these costs to estimate the percentage of the sale value attributable to each item. By
assigning sale values the post can estimate gains or losses on property for enhanced financial
reporting and better decision making for future sales. In addition, because the post assigned the
administrative assistant as BarTracks database owner, the GSM will need to send the list to the
administrative assistant to update the property records in the database.

        We recommend:

        16. That the property database manager update property records with the proceeds from sales
            after the post sells personal property.


INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES

The post had not requested a modification to the services charged in the International
Cooperative Administrative Support Services (ICASS).

OFMH 28, “ICASS,” states:

        Modification factors of .6 or .3 may be used to decrease workload counts when less than the full range of a
        service is used. For example, if Peace Corps workload for a service is 8 Americans, this count may be
        decreased to 4.8 (8 x .6) or 2.5 (8 x .3). Lower workload means lower costs.

ICASS is how the U.S. government provides and shares the costs of common services. For the
Peace Corps, services to American and locally-hired staff are included under ICASS, while
services to Volunteers are not part of ICASS.

In FY 2011, the post was charged the full rate for several services that can be modified, including
health, security, community liaison office, and basic services. Based on our audit, the DMO sent a
request to modify the rates associated with heath services and the community liaison office. Based
on our calculation, the post will save approximately $3,100 a year if these modifications are
approved.

        We recommend:

        17. That the Director of Management and Operations request modified rates for their
            International Cooperative Administrative Support Services.




Final Audit Report: Peace Corps/Jordan                                                                            9
                             QUESTIONED COSTS AND
                          FUNDS TO BE PUT TO BETTER USE
We did not identify any questioned cost. We identified the following funds to be put to better use
during the course of the audit. They are discussed in the accompanying audit report and noted
below.

                                         Funds to be Put to Better Use

     Recommendation
                                                     Description                           Amount
         number
                             Reduction in costs related to the International Cooperative
              17             Administrative Support Services projected over the next       $9,300
                             three years.




Final Audit Report: Peace Corps/Jordan                                                              10
                              LIST OF RECOMMENDATIONS
We recommend:

    1. That the post sign a memorandum of understanding with each university to outline the
       roles and responsibilities of the Peace Corps and the universities.

    2. That the post prepare at the beginning of each year an estimate of all expected
       contributions to be received during the year and reconcile the estimated contributions of
       the beginning of the year with the actual contribution received during the year and clear
       any discrepancies.

    3. That the Director of Management and Operations issue a bill of collection for the host
       country contribution and collect the funds through the imprest fund in accordance with
       Peace Corps Manual section 722 and the Overseas Financial Management Handbook
       chapter 27.

    4. That the Director of Management and Operations implement a process to track the funds
       provided through the Enhancing Water Awareness program to ensure compliance with
       the terms of the interagency agreement.

    5. That the Director of Management and Operations maintain complete lease files
       containing the justification for making advance lease payments and the approval for
       payments other than quarterly.

    6. That the Director of Management and Operations list only local currency and include
       square footage in lease contracts.

    7. That the Director of Management and Operations assign the financial assistant the proper
       user role in FORPost.

    8. That the information technology specialist update the contingency plan to include more
       specific information on recovery procedures.

    9. That the post test the information technology contingency plan each year.

    10. That the information technology specialist, in coordination with the Office of the Chief
        Information Officer, finalize the post’s information system security plan.

    11. That the Director of Management and Operations develop a process to verify that all
        personal vehicle usages were identified and billed and that supporting documentation is
        maintained with the bills of collection.

    12. That the General Services Manager ensure the drivers enter the purpose of each trip in the
        vehicle usage logs.


Final Audit Report: Peace Corps/Jordan                                                             11
    13. That the post conduct inventory reconciliations of the recorded medical supply inventory
        in the health unit with the recorded inventory in the office’s inventory workbook.

    14. That the country director ensure both the medical supply inventory control clerk and the
        acceptance point clerk verify the accuracy of received medical supplies and sign the
        receipt forms.

    15. That the Director of Management and Operations implement the new separation of duties
        during the next physical inventory.

    16. That the property database manager update property records with the proceeds from sales
        after the post sells personal property.

    17. That the Director of Management and Operations request modified rates for their
        International Cooperative Administrative Support Services.




Final Audit Report: Peace Corps/Jordan                                                         12
APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of Peace Corps/Jordan covered fiscal years 2010, 2011, and 2012. While at the post,
we interviewed key staff members including the CD, the DMO, staff members responsible for
administrative support, and the Peace Corps Medical Officer. As part of the audit process, we
briefed the CD and DMO. At headquarters, we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system and verified such data with
hard-copy documents as required. While we did not test the system’s controls, we believe the
information generated by the system and used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/Jordan                                                          13
APPENDIX B

                                         LIST OF ACRONYMS
   APC                            Acceptance Point Clerk
   CD                             Country Director
   DMO                            Director of Management and Operations
   FY                             Fiscal Year
   GSM                            General Services Manager
   IAA                            Interagency Agreement
   ICASS                          International Cooperative Administrative Support Services
   IRC                            Inventory Reconciliation Clerk
   MS                             Peace Corps Manual Section
   MSICC                          Medical Supply Inventory Control Clerk
   OACM                           Office of Acquisitions and Contract Management
   OFMH                           Overseas Financial Management Handbook
   OIG                            Office of Inspector General
   PCMO                           Peace Corps Medical Officer
   TG                             Peace Corps Medical Technical Guideline
   USAID                          U.S. Agency for International Development
   USD                            United States Dollars




Final Audit Report: Peace Corps/Jordan                                                        14
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Jordan          15
APPENDIX D

                                         OIG COMMENTS
Management concurred with all 17 recommendations. We closed six recommendations (numbers
4, 6, 7, 10, 13, and 14) based on evidence of corrective actions that address the
recommendations. The remaining 11 recommendations remain open pending a copy of
documentation listed in the agency’s response.

In their response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Jordan                                                             23
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                         Bradley Grubb, Assistant Inspector General for Audit and
                                         Waheed Nasser, Senior Auditor performed the audit of Peace
                                         Corps/Jordan.




                                         Bradley Grubb
                                         Assistant Inspector General for Audit



OIG CONTACT                              If you wish to comment on the quality or usefulness of this
                                         report to help us strengthen our product, please email Assistant
                                         Inspector General for Audit Bradley Grubb at
                                         bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Jordan                                                                 24
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                                   Hotline:
          U.S./International:       202.692.2915
          Toll-Free (U.S. only):    800.233.5874

          Email:                    OIG@peacecorps.gov
          Web Form:                 www.peacecorps.gov/OIG/ContactUs

          Mail:                     Peace Corps Office of Inspector General
                                    P.O. Box 57129
                                    Washington, D.C. 20037-7129

                      Main Office: 202.692.2900
